1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

____________
No. 18-1601

____________
UNITED STATES OF AMERICA
v.
JAMES BAILEY-SNYDER,
Appellant

____________________________
(M.D. Pa. No. 3-16-cr-00175-001)

____________
SUR PETITION FOR REHEARING

____________
Present: SMITH, Chief Judge, MCKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY,
JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, SCRIRICA and RENDELL,1 Circuit
Judges.

Judge Scirica and Judge Rendell’s cotes are limited to panel
rehearing.
1

2a
The petition for rehearing filed by appellant in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit in regular active service, and no judge who concurred in the decision having asked for rehearing, and
a majority of the judges of the circuit in regular service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is denied.
BY THE COURT,
s/ Thomas M. Hardiman
Circuit Judge
Dated: July 10, 2019
kr/cc: James Bailey-Snyder
Todd K. Hinkley, Esq.

3a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
____________
No. 18-1601
____________
UNITED STATES OF AMERICA
v.
JAMES BAILEY-SNYDER,
Appellant
____________
On Appeal from the United States District Court for
the Middle District of Pennsylvania
(D.C. No. 3-16-cr-00175-001)
District Judge: Honorable Malachy E. Mannion
____________
Argued February 6, 2019
Before: HARDIMAN, SCIRICA, and RENDELL,
Circuit Judges.
(Filed May 3, 2019)
Todd K. Hinkley [Argued]
Office of United States Attorney

4a
235 North Washington Avenue
P.O. Box 309, Suite 311
Scranton, PA 18503
Attorneys for Appellee
Brandon R. Reish [Argued]
31 North 7th Street
Strousburg, PA 18360
Attorney for Appellant
____________
OPINION OF THE COURT
____________
HARDIMAN, Circuit Judge.
This appeal presents a question of first impression
in this Court: does an inmate’s placement in administrative segregation while he is under investigation for
a new crim trigger his right to a speedy trial under the
Sixth Amendment of the Speedy Trial Act? We hold it
does not, so Bailey-Snyder was not entitled to dismissal of his complaint. Nor was there improper vouching
or cumulative error in Bailey-Snyder’s trial. We will
affirm.
I
While incarcerated at the Federal Correctional Institution, Schuylkill, James Bailey-Snyder was moved
to administrative segregation after officers found a
seven-inch homemade plastic weapon (shank) on his
person. United States v. Bailey-Snyder, 2017 WL

5a
6055344, at *1 (M.D. Pa. Dec. 7, 2017). He remained
in isolation in the Special Handling Unit (SHU) pending further investigation by the FBI. Id.
Ten months later, Bailey-Snyder was indicted in
June 2016 on one count of possession of a prohibited
object in prison. Id.; see 18 U.S.C. § 1791(a)(2), (b)(3).
He pleaded not guilty and filed a number of motions
for extension before filing a motion to dismiss in November 2017. Bailey-Snyder, 2017 WL 6055344, at *1.
Focusing on his placement in administrative segregation as the start of the speedy trial clock, BaileySnyder moved to dismiss his indictment, alleging violations of his constitutional and statutory rights to a
speedy trial. Id.
The District Court denied the motion to dismiss
without an evidentiary hearing, reasoning that placement in the SHU does not constitute an arrest or accusation that would trigger speedy trial rights. See id.
at *2. The case went to trial a month later.
The trial focused on the credibility of the two officers who testified that they found a shank on BaileySnyder’s person when they searched him in a staff
bathroom that was not equipped with cameras. In an
effort to undermine the officers’ credibility, defense
counsel cross-examined them regarding the Bureau of
Prisons incentive programs for recovering contraband. On redirect, the Government elicited that the
programs do not reward individual contraband recoveries and that one of the officers did not receive any
award for the search of Bailey-Snyder. The other officer had made similar points during the defense’s
cross-examination. Neither officer discussed the potential consequences they would face for planting a

6a
shank on an inmate and then lying about it. The Government’s only other witness was the FBI agent who
investigated the case. The defense rested without officering testimony or evidence.
Following the Court’s charge to the jury, both parties gave closing statements. The Government’s closing and rebuttal drew two defense objections relevant
to this appeal. During summation, the prosecutor concluded: “I feel as if I’m not up here long enough. There
really isn’t much to say. The defendant is guilt of his
crime and we’re asking you to find him guilty of it.
Thank you, your Honor.” App. 232. The defense objected on the basis that the prosecutor had expressed
personal belief in the defendant’s guilt; the District
Court agreed, so the prosecutor had to make a corrected statement to the jury.1 The defense’s closing focused on the searching officers’ “believability.” App.
234. After tying “policy incentive of the Bureau of
Prisons” to the searching officers’ motives, the defense
claimed: “[a]nd I wouldn’t buy that home on the word
of either of the two people that were on that stand if I
were you.” App. 234–35. In response to that challenge
to the officers’ credibility, the Government agued in
rebuttal: “[i]t’s conjecture to say that these correctional officers would put their jobs, their careers, their
livelihoods on the line to possibly plant a shank on this
defendant to maybe, maybe, have a little notch to get
“Ladies and gentlemen, I think near the end of my oral argument to you I indicated that if you find that the defendant is
guilty you should find him so. I think I may have mumbled during the beginning of that and said the defendant is guilty, you
should find him guilty. What I really meant to say if you found,
if within your common sense, and when you look at all the testimony and evidence presented, if you find that he’s guilty you
should find him guilty.” App. 233–34.
1

7a
a promotion.” App. 237. The defense objected, claiming the Government was “arguing a fact not in evidence,” but the Court overruled the objection. App.
238.
The jury convicted Bailey-Snyder and he was sentenced to 30 months’ imprisonment to run consecutively to his underlying offense of conviction. This
timely appeal followed.
II
The District Court had jurisdiction under 18
U.S.C. § 3231. We have jurisdiction under 28 U.S.C. §
1291 and 18 U.S.C. § 3742(a).
III
The questions whether speedy trial rights attach
when a prisoner is placed in administrative segregation is one of first impression for our Court. BaileySnyder argues that the District Court should have dismissed his indictment because the 10 months and 18
days2 between his placement in the SHU and his indictment violated his right to a speedy trial under the
Sixth Amendment to the Constitution and the Speedy
Trial Act.
A
We begin with Bailey-Snyder’s constitutional argument. The Sixth Amendment states: “[i]n all criminal prosecutions, the accused shall enjoy the right to
a speedy and public trial.” U.S. CONST. amend. IV.
Although Bailey-Snyder’s brief references “approximately
eleven-month segregation,” e.g., Opening Br. 14, it also concedes
we should not count “approximately 75 days” from this period
because of “violations committed while in SHU.” Id. So the time
period at issue is closer to eight months. Bailey-Snyder also does
not challenge the time between the indictment and trial.
2

8a
This guarantee attaches at a defendant’s arrest or indictment, whichever comes first, because it does not
“require the Government to discover, investigate, and
accuse any person within any particular period of
time.” United States v. Marion, 404 U.S. 307, 313
(1971); see id. at 321 (declining to extend the constitutional speedy trial right “to the period prior to arrest”);
United States v. Velazquez, 749 F.3d 161, 183 (3d Cir.
2014).
We again decline to extend the constitutional
speedy trial right “to the period prior to arrest.” Id.
(quoting Marion, 404 U.S. at 321). Unlike police and
prosecutors, the Bureau of Prisons does not operate in
a prosecutorial posture when it decides to place prisoners in administrative segregation. Such decisions
are not dependent on a decision to prosecute. Indeed,
here it preceded any such decision. Prison officials instead segregate inmates for myriad reasons, including: investigation, discipline, protection, prevention,
and transition. See generally FEDERAL BUREAU OF
PRISONS, PROGRAM STATEMENT CPD/CSB 5270.10 (effective Aug. 1, 2011) (detailing objectives and policies
of SHUs, including reasons for placement there), superseded by PROGRAM STATEMENT CPD/CSB 5270.11
(effective Nov. 23, 2016) (same). Neither the United
States Attorney nor the FBI orders these placements
and they are not typically notified when such placements are made. For that reason, SHU placements
have their own administrative review and appeals
processes. See generally id. (citing Administrative
Remedy Program, 28 C.F.R. § 542, subpart B).
Our holding today is consistent with all five courts
of appeals that have considered the issue. See United
States v. Wearing, 837 F.3d 905, 909 (8th Cir. 2016)
(per curiam); United States v. Daniels, 698 F.2d 221,

9a
223 (4th Cir. 1983); United States v. Mills, 641 F.2d
785, 787 (9th Cir. 1981); United States v. Blevins, 593
F.2d 646, 647 (5th Cir. 1979) (per curiam); United
States v. Bambulas, 571 F.2d 525, 527 (10th Cir. 1978)
(per curiam). Our sister courts have persuasively rebutted the reasons Bailey-Snyder asks us to break
ranks with them. Citing the factors in Marion that inform the speedy trial right, Bailey-Snyder argues that
SHU placement (like an arrest): restrains the inmate’s liberty, worries friends and family, prevents
the inmate from gathering evidence, and focuses the
prison population’s obloquy on the segregated inmate.
Bust such placement occurs in “the peculiar context of
a penal institution where the curtailment of liberty is
the general rule, not the exception.” Daniels, 698 F.2d
at 223 n.1 (quoting Mills, 641 F.2d at 787). That administrative context explains why inmates like Bailey-Snyder have an opportunity to administratively
challenge their segregation’s length prior to arrest or
accusation, and why administrative segregation does
not constitute an arrest or public accusation for purposes of the Sixth Amendment right to a speedy trial.
In sum, because Bailey-Snyder was not arrested
when he was placed in administrative segregation, his
Sixth Amendment right to a speedy trial did not attach and his constitutional right was not violated.
B
We turn next to Bailey-Snyder’s statutory argument. Congress enacted the Speedy Trial Act to give
effect to the Sixth Amendment’s speedy trial guarantee by setting time limits within which trials must
begin. United States v. Rivera Constr. Co., 863 F.2d
293, 295 (3d Cir. 1988). The Speedy Trial Act requires
the Government to “file an indictment or information

10a
against a defendant ‘within thirty days from the date
on which such individual was arrested or served with
a summons in connection with such charges.’” United
States v. Oliver, 238 F.3d 471, 473 (3d Cir. 2001) (quoting 18 U.S.C. § 3161(b)).
For the same reasons we rejected Bailey-Snyder’s
constitutional argument, we hold that administrative
segregation is not an arrest for purposes of § 3161(b).
In doing so, we again join every other circuit court of
appeals that has addressed this question. See Wearing, 837 F.3d at 908 (per curiam); United States v.
Harris, 12 F.3d 735, 736 (7th Cir. 1994); United States
v. Jackson, 781 F.2d 1114, 1115 (5th Cir. 1986) (per
curiam). Bailey-Snyder was already imprisoned for
another offense, so several non-prosecutorial reasons
justified his segregation once he was found in possession of a lethal weapon. Moreover, he could have challenged his prolonged HSU placement independent of
the Speedy Trial Act. See Administrative Remedy Program, 28 C.F.R. § 542, subpart B; PROGRAM STATEMENT 5270.11.
IV
In addition to his legal arguments regarding his
speedy trial rights, Bailey-Snyder claims he is entitled
to a new trial because of improper comments by the
prosecutor during his summation. Bailey-Snyder
claims the prosecutor’s comments about the credibility of the Government’s two key witnesses constituted
improper vouching.
Three things are required to reverse a conviction
for improper vouching: (1) the prosecution assured the
jury of its witnesses’ credibility, (2) the assurance
came from fact(s) not in the record, and (3) the assurance prejudiced the defendant. See United States v.

11a
Walker, 155 F.3d 180, 184 (3d Cir. 1998); United
States v. Zehrbach, 47 F.3d 1252, 1265 (3d Cir. 1995)
(en banc). A statement that an “officer would be risking his career to lie under oath” may or may not constitute improper vouching, depending on the context.
United States v. Weatherly, 525 F.3d 265, 271 (3d Cir.
2008).
In Weatherly, the prosecutor posed this rhetorical
question to the jury: “Why would Officer[s] . . . risk
their 32–34 years of experience on the police force over
this case?” 525 F.3d at 271. We held that question was
not improper for three reasons. See id. at 271–273.
First, evidence in the record showed that discipline
generally affects officers’ careers, which allowed the
jury to conclude that officers could risk their careers
by committing misconduct. That defeated an element
of improper vouching: fact(s) not of record. See id. at
271–72. Second, the prosecutor’s question reasonably
responded to the defense’s own speculative attacked
on the officers’ credibility, which excused any impropriety. See id. at 272. And third, even if improper, the
defendant was not prejudiced because the brief, isolated comment was responsive to defense attacks and
because the judge had “thoroughly instructed” the
jury that counsel’s statements are not evidence. Id. at
272–73. We also noted that arguing an officer “had too
much to lose to commit perjury merely to convict th[e]
defendant” could be “a common sense conclusion” the
prosecution may properly ask the jury to reach without evident in the record to support it. Id. at 271 n.7
(quoting United States v. Bethancourt, 65 F.3d 1074,
1082 (Cd Cir. 1995) (McKee, J., dissenting)). In other
words, such a statement may not be improper vouching at all.

12a
In this appeal, the Government’s comment was
similar to the rhetorical question in Weatherly. The
prosecutor said: “It’s conjecture to say that these correctional officers would put their jobs, their careers,
their livelihoods on the line to possibly plant a shank
on this defendant to maybe, maybe, have a little notch
to get a promotion.” App. 237. We hold that this common sense conclusion was not improper vouching,
even without explicit evidence in the record to support
it. Although neither officer testified that they risked
their jobs if they planted a shank on Bailey-Snyder, it
should be obvious that falsifying evidence, filing dishonest sworn reports, and lying in open court should
(and would) jeopardize one’s career as a correctional
officer. The Government’s comment was “brief and appropriate,” Weatherly, 525 F.3d at 272, and exactly
“the kind of effective and logical response to an attack
on an agent’s credibility that has been made in countless numbers of closing arguments, and will be made
in countless more.” Id. at 271 n.7 (quoting Bethancourt, 65 F.3d at 1082 (McKee, J., dissenting)). Although there was no admitted evidence of discipline affecting these officers’ careers—and although the Government’s case depended entirely on the officers’ testimony—the Government briefly responded to the defense’s credibility attacks with a proper, common
sense conclusion.
Also like in Weatherly, the challenged statement
here does not involve the prosecutor “invok[ing] his
own oath of office to defend the [officers’] credibility,”
which we have held to be improper. Id. (citing United
States v. Pungitore, 910 F.2d 1084, 1125 (3d Cir.
1990)). In Pungitore, the prosecutor’s improper vouching took the form of claiming “the U.S. Attorneys and

13a
law enforcement could not have behaved as unscrupulously as defense counsel alleged they did without violating their oaths of office and jeopardizing their careers.” 910 F.2d at 1125. Here, the prosecutor did not
invoke his oath of office. Indeed, the Government here
did not “vouch” in the strictest sense of the word: it did
not swear to or make promises about the officers’ credibility. Instead, the Government supported its witnesses’ credibility by pointing out obvious consequences they would face for lying after the defense insinuated they had a motive to do so. The Government
need not have elicited testimony or admitted evidence
that planting evidence and then lying about it under
oath would harm their careers before saying so in rebuttal.
We also note that, even if the Government’s comment were improper vouching, it still would be excusable here as “a reasonable response to allegations of
perjury by [the defense.]” Weatherly, 525 F.3d at 272.
As in Weatherly, Bailey-Snyder’s single theory was
that the officers who discovered the shank had a motive (the prison’s incentive policies) and opportunity
to fabricate doing so. See id. The defense’s closing focused on those motives and incentives to find shanks,
even though nothing in the record established they affected these officers. So the defense speculated about
the officers’ motives, and the Government’s brief, logical response appropriately characterized that as “conjecture.” App. 237; see Weatherly, 525 F.3d at 272.
V
Lastly, we address cumulative error. To reverse a
conviction for cumulative error requires more than
one error. See United States v. Hill, 976 F.2d 132, 145
(3d Cir. 1992). And this is a demanding standard that

14a
warrants reversal only when the combined errors “so
infected the jury’s deliberations that they had a substantial influence on the outcome of the trial.” Id.
Because the Government’s comment about its witnesses’ credibility was proper, there is no error to compound with the Government’s comment on BaileySnyder’s guilt. Even if there were unexcused improper
vouching, the Government’s brief comment about Bailey-Snyder’s guilt was stricken by the Court, and immediately corrected by the Government itself. See supra Note 1. Furthermore, the Court had instructed
the jury before closing that lawyers’ statements, including those made in closing, are not evidence. These
facts leave us with little reason to believe that the
Government’s statements improperly influenced the
jury at all, let along substantially. Thus, there was no
cumulative error.
*

*

*

The District Court did not err in denying BaileySnyder’s motion to dismiss the indictment for a
speedy trial violation. Nor was there improper vouching or cumulative error at trial. We will therefore affirm the judgment of conviction and sentence.

15a
APPENDIX C
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF
AMERICA
v.

CASE NO. 3:16-CR175
(JUDGE MANNION)

JAMES BAILEY-SNYDER,
Defendant
MEMORANDUM
Pending before the court is the defendant James
Bailey-Snyder’s motion to dismiss the indictment.
(Doc. 50). Based upon the court’s review of the motion
and related materials, the defendant’s motion will be
DENIED.
I. BACKGROUND
On August 10, 2015, federal inmate James BaileySnyder, who was then being housed at the Federal
Correctional Institution in Schuylkill, Pennsylvania
(“FCI-Schuylkill”), was found to be in possession of a
seven-inch homemade plastic weapon that was sharpened to a point with a shoelace string attached as a
handle (commonly known as a “shank”). (Doc. 1).
Later that same day, Bailey-Snyder was transferred
to FCI-Schuylkill’s Special Handling Unit (“SHU”),
which is an administrative segregation facility, where
Bailey-Snyder remained in isolation pending further
investigation. (Doc. 51).

16a
The parties attempted to reach a preindictment
plea agreement but were unable to do so. (Doc. 56). As
such, the matter was presented to a grand jury for the
Middle District of Pennsylvania, which issued a single-count indictment against Bailey-Snyder in the
above-captioned case on June 28, 2016. (Doc. 1). The
indictment charged Bailey-Snyder with violating 18
U.S.C. §§1791(a)(2) and (b)(3), which forbid the possession of a prohibited object while serving time as a
prison inmate. (Id.).
Bailey-Snyder pled not guilty to the crimes
charged on July 19, 2016. (Doc. 9). After filing a series
of motions to extend time limitations and to continue
the trial date, Bailey-Snyder filed the instant motion
to dismiss the indictment, along with a brief in support, on November 17, 2017. (Doc. 50; Doc. 51). The
government filed its brief in opposition to the instant
motion on November 30, 2017. (Doc. 56). Trial is currently scheduled for December 11, 2017. This matter
has been fully briefed and is now ripe for disposition.
II. DISCUSSION
A. The Defendant’s Speedy Trial Rights
Bailey-Snyder’s primary argument in favor of dismissing the indictment is that the government violated his constitutional and statutory rights to a
speedy trial under the Sixth Amendment and the
Speedy Trial Act, 18 U.S.C. §§3161-3174. To this end,
Bailey-Snyder alleges that his rights were violated because the government indicted him ten months and
eighteen days after his placement into the SHU,
which Bailey-Snyder claims constituted an “arrest”
for speedy trial purposes. (Doc. 51).

17a
The Sixth Amendment provides that “[i]n all criminal prosecutions, the accused shall enjoy the right to
a speedy and public trial.” U.S. CONST. AMEND. XI.
The Sixth Amendment’s protections are “activated
only when a criminal prosecution has begun and [extend] only to those persons who have been accused
[during] the course of that prosecution.” United States
v. Marion, 404 U.S. 307, 313 (1971). Thus, the Sixth
Amendment “afford[s] no protection to those not yet
accused,” nor does it “require the government to discover, investigate, [or] accuse any person within any
particular period of time.” Id. The Supreme Court has
interpreted the word “accused” to mean any person
who has been arrested or formally indicted See id. at
321 (holding that “[i]nvocation of the speedy trial provision . . . need not await indictment, information, or
other formal charge. But we decline to extend that
reach of the Amendment to the period prior to arrest.
Until this event occurs, a citizen suffers no restraints
on his liberty and is not the subject of public accusation”).
The Speedy Trial Act (“the Act”) establishes more
specific time limitations to ensure that the various
stages of a criminal proceeding progress promptly.
Specifically, the Act provides that “[a]ny information
or indictment charging an individual with the commission of an offense shall be filed within thirty days
from the date on which such individual was arrested
or served with a summons in connection with such
charges.” 18 U.S.C. §3161(b). The Act, however, specifically exempts certain causes of delay from consideration when calculating the total amount of elapsed
time, including “delay resulting from any pretrial motion” and “delay resulting from a continuance granted
by any judge.” Id. §3161(h).

18a
This case presents an issue of first impression in
the Third Circuit, as out courts have yet to encounter
the question of whether an inmate’s placement into
administrative segregation amounts to an “arrest” for
speedy trial purposes. While the Third Circuit has yet
to decide this issue directly, other Court of Appeals
have squarely addressed it, and the court finds their
reasoning both persuasive and instructive. Those
Courts of Appeals that have faced this issue have uniformly concluded that being held in administrative
segregation pending criminal charges is not an arrest
under either the Sixth Amendment or the Speedy
Trial Act. See, e.g., United States v. Wearing, 837 F.3d
905, 909 (8th Cir. 2016); United States v. Daniels, 698
F.2d 221, 223 (4th Cir. 1983); United States v. Mills,
641 F.2d 785, 787 (9th Cir. 1981); United States v.
Blevins, 593 F.2d 646, 647 (5th Cir. 1979); United
States v. Bambulas, 571 F.2d 525, 527 (10th Cir.
1978).
The Supreme Court has previously outlined the
contours of what constitutes an arrest for speedy trial
purposes. “Arrest is a public act that may seriously interfere with the defendant’s liberty . . . and that may
disrupt his employment, drain his financial resources,
curtail his associations, subject him to public obloquy,
and create anxiety in him, his family, and his friends.”
Marion, 404 U.S. at 320. An inmate’s placement into
administrative segregation, by contrast, is “in no way
related to or dependent on prosecution by the federal
government” and is instead “a method of disciplining
or investigating inmates who break prison regulations, of protecting certain inmates from members of
the general population, and of providing a general
cooling-down period for inmates involved in events
that could disrupt the general [inmate] population.”

19a
Wearing, 837 F.3d at 909 (quoting United States v.
Duke, 527 F.2d 386, 390 (5th Cir. 1976)).
Here, FCI-Schuylkill’s disciplinary procedures
“did not focus obloquy upon [the defendant], did not
disrupt [his] employment or drain [his] financial resources.” Mills, 641 F.2d at 787 (9th Cir. 1981) (quoting United States v. Clardy, 540 F.2d 439, 441 (9th
Cir.), cert. denied, 429 U.S. 963 (1976)). While BaileySnyder’s “[a]ctual physical restraint may have increased and [his] free association [may have] diminished . . . unless we were to say that imprisonment . . .
is a continuing arrest, these criteria bear little weight
in the peculiar context of a penal institution where the
curtailment of liberty is the general rule, not the exception.” Id. In other words, Bailey-Snyder’s placement into the SHU was not a “public act with public
ramifications,” as an arrest is often considered to be;
instead, it was merely a private act. Id. In every case
where this question has been directly addressed,
courts have found that the confinement of a prison inmate in administrative segregation is not the equivalent of an arrest for purposes of either the Sixth
Amendment or the Speedy Trial Act. As such, BaileySnyder’s motion to dismiss cannot succeed on this basis. Finally, since there was no post-accusation delay
in this case, the balancing test enunciated in Barker
v. Wingo, 407 U.S. 514, 530 (1972), is inapplicable. See
Mills, 641 F.2d at 787; Blevins, 597 F.2d at 647.
B. The Defendant’s Due Process Rights
Bailey-Snyder’s second argument in favor of dismissing the indictment is that his Due Process rights
were violated due to the government’s pre-accusation
delay in bringing an indictment against him.

20a
While statutes of limitations are the criminal defendant’s primary safeguard against prejudice from
pre-accusation delay, Due Process guarantees stemming from the Fifth Amendment also provide certain
protections. See Marion, 404 U.S. at 323-24. See also
United States v. MacDonald, 456 U.S. 1, 7 (1982) (noting that “[t]he Sixth Amendment right to a speedy
trial is . . . not primarily intended to prevent prejudice
to the defense caused by passage of time; that interest
is protected primarily by the Due Process Clause and
by statutes of limitations”). To establish a Due Process
violation based on pre-accusation delay, the defendant
must “show both (1) that the delay between the crime
and the federal indictment actually prejudiced his defense; and (2) that the government deliberately delayed brining the indictment in order to obtain an improper tactical advantage or to harass him.” United
States v. Beckett, 208 F.3d 140, 150 (3d Cir. 2000).
“[T]he due process inquiry must consider the reasons
for the delay as well as the prejudice to the accused.”
United States v. Lovasco, 431 U.S. 783, 790 (1977).
The reasons for said delay generally must amount to
“prosecutorial bad faith.” United States v. Sebetich,
776 F.2d 412, 430 (3d Cir. 1985).
Here, Bailey-Snyder has offered no concrete evidence of prosecutorial bad faith, and any evidence of
prejudice is speculative at best. On the first prong of
the Due Process analysis, Bailey-Snyder contends
that exculpatory video surveillance evidence was lost
due to the government’s delay in bringing an indictment. (Doc. 51). Specifically, Bailey-Snyder claims
that a lost video recording captured corrections officers’ initial search of his person, where no prohibited
objects were found. (Id.). The government counters

21a
this contention by arguing that even if such video evidence existed, the corrections officers ultimately
found the shank on Bailey-Snyder’s person during a
search inside a prison restroom, where no video surveillance is conducted. (Doc. 56). Surveillance recordings at FCI-Schuylkill are preserved only for a set period of time before being disposed of, so Bailey-Snyder
argues that these allegedly exculpatory video recordings were lost while he was confined in the SHU and
that the government’s delay in bringing an indictment
subsequently prejudiced his defense. (Doc. 51). BaileySnyder further claims that several unidentified defense witnesses, whose names he does not remember,
could have been located while he was confined in the
SHU but now cannot be found. (Id.).
Bailey-Snyder’s contentions, however, amount to
little more than mere speculation and do not satisfy
his burden of demonstrating actual prejudice to his
defense. See United States v. Robles, 129 F. App’x 736,
738 (3d Cir. 2005) (Stating that “[t]o prevail in a Fifth
Amendment Due Process claim based on the [g]overnment’s pre-accusation delay, a defendant must prove
that he was actually prejudiced by the delay”). Even if
it could be verified that such video evidence actually
existed, there is no guarantee beyond conjecture that
the video would have been beneficial to BaileySnyder’s defense. In addition, Bailey-Snyder is in no
worse a position to locate his witnesses now than he
was before any alleged or perceived delay. BaileySnyder offers no specific, articulable facts or proposed
witness testimony in support of his claims, and such
speculative offerings are insufficient to demonstrate
prejudice. See Gulley, 526 F.3d at 820 (noting that
“[t]o establish prejudice, the defendant must offer
more than mere speculation of lost witnesses, faded

22a
memories or misplaced documents; he must show an
actual loss of evidence that would have aided the defense and that cannot be obtained from other
sources”). Bailey-Snyder also remains fully able to testify about his own recollection of the events surrounding the corrections officers’ search, to cross-examine
the corrections officers who searched him, and to develop a record of what actually occurred during the
search. Moreover, Bailey-Snyder or his attorney could
have requested preservation of this video evidence if
they believed that that it would be central to their defense. As such, Bailey-Snyder has not demonstrated
any actual prejudice to his defense resulting from preaccusation delay.
As to the second requirement for establishing a
Due Process violation based on pre-accusation delay,
Bailey-Snyder has failed to produce any evidence in
support of his claim that the government’s delay in issuing the indictment was deliberate. Even if BaileySnyder’s defense were prejudiced by some alleged loss
of evidence, a criminal defendant must further
demonstrate that such delay was the result of intentional government misconduct to establish a Due Process violation. See, e.g., Lovasco, 431 U.S. at 783. No
such government wrongdoing occurred here. Accordingly, Bailey-Snyder’s Due Process challenge to the issued indictment fails, and his motion to dismiss will
be denied.

23a
III.

CONCLUSION

Based on the foregoing, the defendant’s motion to
dismiss the indictment, (Doc. 50), will be DENIED.
An appropriate order shall issue.
[Malachy E. Mannion]
MALACHY E. MANNION
United States District Judge
Date: December 7, 2017

